         BIRTH CERTIFICATE FRAUD





OFFICE     OF INSPECTOR              GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS
                                           MARCH   1988
                       OFFICE OF INSPECTOR GENERA

The mission of the Offce of Inspector General (OIG) is to promote the efficiency, effec­
tiveness and integrity of programs in the United States Department of Health and
Human Services (HHS). It does this by developing methods to detect and prevent fraud
waste and abuse. Created by statute in 1976, the Inspector General keeps both the
Secretary and the Congress fully and 
    rrently informed about programs or management.
problems and recommends corrective action. The OIG performs its mission by conduct­
ing audits , investigations and inspections with approximately 1 200 staff strategically lo­
cated around the country. 

                  OFFICE OF ANALYSIS ANI; INSPECTIONS
This report is produced by the Office of Analysis and Inspections (OAl), one of the three
major offices within the OIG. The other two are the Office of Audit and the Office of In­


abuse.
vestigations. The OAi conducts inspections which ate tyically short- term studies
designed to determine program effectiveness , efficiency and vulnerabilty to fraud or


                                     THIS REPORT
This report is entitled Birth Certificate Fraud. It waS prepared following a review con­
ducted to help lU-IS and other interested parties to gain a current overvew of (1) the vul­
nerabilities to fraud in birth certificate forms and procedures of issuing and user agencies
and (2) the best practices among State and local jurisdictions to minimie these vul­
nerabilities.

The report was prepared by the Regional Inspector General , Office of Analysis and In­
spections , New York Region. Participating on the review were the following:


Project Staff/Region II                     Project leader
Lucile Cop                                  Alan S. Meyer , Ph.
Jack Molnar                                 Deputy      egional Inspector General
Pereta Rodriguez                            Region II
Renee Schlesinger

Region I                                    Headquarters
Thomas Nee                                  Gail Shelton

Region IX
Deborah Harvey
                     BIRTH CERTIFICATE FRAUD





                            Richard P. Kusserow
                            INSPECTOR GENERAL




OAI- 86- 02-   001                                MACH 198
                                   PREFACE





 . . . the foundation, or breeder document, for almost any other kid ofiden­
                                               Over 7 000 State and local vital
tification for citizens is the birth certificate.
records offices issue birth certificates with no uniform standards for issuance
processes , controls , or quality of dOClments. . In some jurisdictions , birth cer­
tificates are easily counterfeited , obtaied through imposture, or created
from stolen legitimate blan form. II *




*From Report of the Task Force on Criminal Implications of False Identifica­
tion of the Fifth Conference of the Judiciar held by Laws At Work on May
23- , 1984 in Los Angeles.
                                                       ......................
                                                        .....................
                                       ... .............................. . ........
                                                                            .....
                                                                ................




                        TABLE OF CONTENTS



                                                                                     Page


PREFACE


EXECUTIVE SUMMARY ..................................                           ......... I

INTRODUCTION ... ....... ....                                                       .. 1


FI N DI N GS   ............................. ..................                        . 3


         I. The Problem                ............................................. 3

         II. The Issuing Agencies.......................                                 8



         II. The Birth Documents.......................                                10



         IV. The Issuing Procedures
         V. The User            Agencies .................................... 16


RECOMMENDATIONS ................................................. 21


APPENDICES

         A. Best Practices............................................ A 1

         B. Comments on Draft Report

                and OIG Comments...

                  List of Abbreviations

AFC       Aid to Famlies with Dependent Children
 VRS ­    Association for Vital Records and Health Statistics
DEFRA ­   Deficit Reduction Act
DMV       Department of Motor Vehicles
EPIC      EI Paso Intellgence Center
FACFI ­   Federal Advisory Commttee on False Identification
HHS       Department. of Health and Human Servces
          Identification
          Inspector General
INS       Immgration and Naturalization
LAW       Laws At Work
NCHS      National Center for Health Statistics
NWA ­     National Welfare Fraud Association
OAI       Office of Analysis and Inspections
          Office of Investigations
OIG       Office of Inpector General
SSA       Social Security Administration
SSI       Supplemental Security Income
                               EXECUTIVE SUMMARY

PURPOSE AND BACKGROUND

In 1976 , the Federal Advisory Commttee on False Identification (FACFI)of theJustice
Department pointed out that false identification was a serious national problem. In 1984
the Task Force on Criminal Implications of False Identification , sponsored by Laws at
Work (LAW), a national citizen s association interested in law enforcement issues, en- '
dorsed a broad range of proposed actions , including a national review of birth cer1ificate
systems and practices. This inspection is a further study of this problem.

The purpose of the inspection was to: (1) identify vulnerabilties to fraud in birth certifi­
cate forms and issuance procedures and in procedures of user agencies which receive
birth certificates as documentation; and (2) describe best practices among State and local
jurisdictions to remove or minimize these vulnerabilties.


METHODOLOGY

Eleven States and New York City, representing differing problems and best practices in
birth certificate forms and procedures, were visited. The sites included a dispropor­
tionate number of States with big cities or port or border cities where birth certificate
fraud is heavily concentrated. Discussions were held with State and local registrars; fraud
investigators from Immgration and Naturalization Servce (INS), passport servces , and
various State agencies; and front- line workers in issuing and user agencies.

The study focused primarily on certified copies of birth records. In this report these cer­
tified copies are referred to as "birth certificates " as distinct from the original birth
records or birth registrations on which certifed   copies are based.



FINDINGS


clude: .

Major findings , which confirmed and extended the study results of F ACFI and LAW, in­


                 A birth certificate issued in the States is the key to opening many doors
                 in our society -- from citizenship privileges to Social Security benefits.
                 Such certificates can then be used as "breeder " documents to obtain
                 driver s licenses , passports, Social Security cards or other documents
                 with which to create a false identity. An Office of Inspector General
                 study entitled Social Security Number Validity in the Aid to Familes
                 With Dependent Children Program (AFDC), has shown that invalid
                 Social Security cards are a major c use of AFDC errors.
The birth certificate is also a key to creating a false identity and thus has
great value for undocumented aliens who seek fraudulent citizenship,
ineligible applicants who seek jobs or benefits , credit defrauders
fugitives , terrorists , and drug smugglers. Individuals can obtain a valid
birth certificate through theft, purchase, borrowing, or applying, and
then impersonate the real owner. . They may produce , steal , or buy a
counterfeit or altered document.

While false identification (ID), in general, is estimated to cost society
bilions of dollars anually, data on the extent of birth certificate fraud
are limited. With the new immgration law, however, it is likely that
such fraud will increase.

Issuance of birth certificates is a State fuction, but almost 7 00 local
registrars ' offices also issue certificates. The resulting multitude of
certificate forms , official seals , and signatures (an estimated 10 000
nationwide) makes it extremely diffcult for user agency workers to
detect false documents.
Privacy and security safeguards to protect birth records from
unauthorized disclosures vary from State to State. In some cases this is
attributable to a lack of State statutes on privacy of vital record
information. Ten States allow the public open access to vital records.
Even in the restricted States , however, ID is often not required. Weak
physical security over forms and records , and use of non-safety paper for
certificates, create additional vulnerabilties.

Local offices which issue most birth certificates are even more
vulnerable. They are less likely than their State offices to have safety
paper, a standard State form, adequate security, or to mark " deceased"
on birth certificates for dead registrants. Moreover, State control of
local. offices is stil   strongly resisted;

A variety of measures to fight fraud have been developed. Many States
limit local issuance and many now provide a standard State birth
certificate form to their local offices and use safety paper or plan to do
so. It is becoming increasingly common to match birth and death
records. (See Best Practices in Appendix A.
                 The primary users of birth certifcates (e. , Social Security
                 Admiistration, passport servces , State welfare agencies, driver
                 license agencies , etc. ) are faced with a gargantuan task. A birth
                 certificate submitted to their workers may be anyone of thousands of
                 variations makng it virtually impossible to determne their v idity.

                 The ad hoc nature of commumcation between Federal and State
                 agencies has hindered effective prevention and detection of birth
                 certificate fraud. Prosecution is hindered by legal limitations and
                 difficulties in getting prosecutors to take cases involving birth certificate
                 fraud unless linked with other major criminal activity.


RECOMMENDATIONS

Efforts to reduce birth certificate fraud take on added urgency in light of the new im­
migration law which requires employers to check th citizenship or work authorization
and identity documents of potential employees. The new law also requires State agencies
to verify the immgration status of alien applicants for Federal benefit program. It is ex­
pected that more aliens will try to escape this check by claiming citizenship. A birth cer­
tificate is one acceptable identity docuent for verifyng citizenship.

Since the issuance of birth certificates is clearly a State function , recommendations are
directed to the State level. To be effective , improvements in birth certificate controls
must include both stricter issuance and more tamper-proof documents. Neither by itself
is sufficient.

It is recommended that State registrars , with the support of their Governors , legislatures
and relevant national associations as needed , should:

                 standardize the form and content of birth certificates within their State
                 to protect birth documents against alteration and counterfeiting, and
                 expand the use of bank note- tye safety paper with security featues;

                 promote greater intra- State standardization of birth certificate forms
                 and procedures , through State legislation if necessar, by reducing the
                 number of local issuing offices and/or exercising greater control over
                 them;

                 establish minimum standards for all issuing offices to assure the physical


                 blank;
                 security of original vital records , certified copy blanks , and seals against
                 theft , and maintain a system of strict accountabilty of all certified copy
                 urge legislatures to amend existing statutes or pass new ones , where
                 needed , to protect the privacy of individual vital records by restricting
                 physical access and strictly limiting applications for copies;

                 assure that States participate fully in and help expand the voluntar
                 Interstate Vital Records Exchange System of the Association for Vital
                 Records and Health Statistics , by in,cuding the sharng of death records
                 for persons substantially beyond infancy, and should apply a "Deceased"
                 overlay to all original and certified copies of birth records of persons
                 who have died; and

                 work cooperatively with the Social Security Administration to establish
                 procedures whereby parents can receive a Social Security number for
                 their infants at the time a birth is registered , and in the long run help
                 reduce the utility of a false birth certificate as a breeder document of a
                 false identity. 

COMMENTS ON DRAFT REPORT AND OIG RESPONSES

Department of Health and Human Servces comments were received from the Ad­
ministrator of the Health Care Financing Administration (HCF A), the Deputy Assistant
Secretary for Health Operations of the Public Health Servce (PHS), and the Comms­
sioner of Social Security. From outside HHS they were received from the President of
the Association for Vital Records and Health Statistics (A VRHS) and the Director of the
Office of Consular Fraud Prevention Program of the U. S. Department of State.

The PHS commented that the report should distinguish between an original birth record
and a certified copy of the record. In response , the term "birth certifcate " as used in the
report wil always refer to a   certified copy.
The A VRHS suggested that additional documentation of the extent of the fraud problem
would help convince States of the need for change. Additional information on the scope
of the problem is thus included.

The Department of State and HCF A made suggestions for more specific recommenda­
tions involving a more active Federal role as well as coordinated action by State and local
registrars. The details of these comments and our responses are summarized in Appen­
dix B.

The A VRHS and PHS offered technical comments on specific findings and on several
recommendations. In response , appropriate changes were made as indicated in Appen­
dix B.
                                     INTRODUCTION

PURPOSE AND BACKGROUND

In 1976 , the Justice Department's Federal Advisory Commttee on False Identification
(FACFI) in its report The Criminal       Use Of False 
 Identification found fraudulent iden-
tification to be a national problem costing $15 bilion anually. The F ACFI recom­
mended standardization of birth records , matching of birth and death records , limited
access to records , and other measures to reduce the fraudulent use of birth certificates
and other documents. In 1977 , the U. S. Public Health Servce revised its Model State
Vital Statistics Act , in part to stregthen efforts to reduce birth certificate fraud.

Seven years later , in response to continuing problems , the Inspector General (IG) of the
Department of Health and Human Servces (HHS) and top officials from the Depar­
ments of State and Justice co-chaired a Task Force on Criminal Implications of False
Identification. Sponsored by the Fifth Conference on the Judiciar of " Laws at Work"
(LAW), the task force proposed a study of birth certificate problems and practices. The
task force acknowledged the signiicant work done by the HHS IG in investigating birth
certificate fraud and issuing fraud alerts and recommendations to correct vulnerabilties.
To further the recommendations of the task force, the HHS IG initiated this national in­
spection of the problem of birth certificate fraud and measures to counteract it. The pur­
poses of the inspection were to: 


                 identif vulnerabilities to   fraud in birth certifcate form and procedures
                 and in procedures of user agencies which receive birth certificates as
                 documentation; and

                  describe best practices   among State and local juridictions   to remove   or
                  minimize these vulnerabilities.

The birth certificate is a key document in applying for benefits , privileges , or servces
from a variety of Federal and State program such as Social Security, Aid to Famlies
with Dependent Children (AFDC), Medicaid or Food Stamps. The birth certificate is
also used to obtain other important documents such as a passport or driver s license. The
birth certificate has been caned a "breeder " document because with a false one a person
can obtain other false identification (ID) documents with which to defraud Governent
or business , or create a new identity.

The release of this report , cornng after the enactment of the Immgration Reform and
Control Act of 1986 (IRCA), should be especially timely for States in their efforts to
strengthen document security and issuance practices and for user agencies in tightening
eligibility verification procedures.
METHODOLOGY

The IG' s  Office of Analysis and Inspections (GAl) in New York, with support from Bos­
ton , San Francisco , and Seattle, visited 12 jurisdictions (11 States and 1 city). The sites
visited were: California, Florida , Ilinois , Massachusetts , Michigan, Minesota, New
York City, New York State , Texas , Vermont , Virginia and Washington. Since New York
City has its own registrar, it is treated as a State. Discussions in New Jersey pre- tested
the study design and provided data for analysis. The study focused primarly on certified
copies of birth records.

In this study, the certified copies are referred to as "birth certificates " as distinct from the
original birth records or registration on which certified copies are based.

Pre- inspection discussions were held with officials of the U. S. Deparments of State and
Justice and of HHS' s Social Security Administration (SSA) and National Center for
Health Statistics (NCHS). The Association for Vital Records Health Statistics (A vRHS)
and the National Welfare Fraud Association (NWFA) provided useful assistance. Also
helpful were central and regional staff from the Offce of Investigations (01) who
provided case material.

Sample States were selected to include major tyes of vulnerabilties to birth certificate
fraud , and best practices in counteracting these vulnerabilties. The sample contai a
disproportionate number of States with large metropolitan areas and port or border cities
where problems involving fraudulent use of birth certificates are most likely to be found.
The States include a mi with regard to the number of local registrars, the ease with
which someone can obtain a birth certifcate , and geographical region.

In each of the 12 States ,team members met with State and local registrars, fraud inves­
tigators , and front-end workers in issuing and user agencies. The investigators were from
State human services and motor vehicles agencies , INS special agents , passport agency
fraud coordinators , SSA Regional Security Offcers , and 01 and other agencies. Team
members held over 200 discussions.
                                  FINDINGS

THE PROBLEM,


 They are definitely being used for fraudulent purposes. We may be seeing the tip of
the iceberg. Birth certifcates are needed for our life style. A person needs a birth cer­
                                                                            II -- A New
tifcate to participate in society. For fale identity, it is what is needed.
England Fraud Investigator 

Birth   Certificate Fraud Takes Many Forms
Birth certificate fraud involves one or more of the following ilegal acts: stealing,
transferring or sellng valid birth certificates; counterfeiting, sellng, or using
bogus documents; using or sellng altered documents; and using someone. else
valid certificate by impersonating the owner.

Impersonation was most often mentioned by investigators and registrars as the
most common way of obtainng a birth certificate for fraudulent purposes. In
some areas, counterfeiting is a big business. Use of a counterfeit birh certifcate
was , in fact , mentioned second as a way of commtting birth certificate fraud. Al­
teration of a valid certificate was mentioned third. Theft was mentioned least
often , though a variety of incidents were reported.

The following cases from the Office of Investigations strikigly     ilustrate the im­
personation method of commtting birth certifcate fraud:

           Many years ago , a baby died in infancy. Recently, a young man (under
           the age of 20 and employed as a caretaker in a local cemetery) requested
           from a registrar s office a copy of the birth certificate of the dead inant.
           Since this State considers birth records public information and allows
           practically anyone to request and obtain anyone else s birth certificate,
           he was able to get the dead infant' s birth certificate. With this, he
            attempted to open a ban account using the identify of the
          . long- deceased infant. Much to his surprise, he was apprehended afer
           being recognized by the ban teller , who was the mother of the dead boy.

           A Supplemental Security Income (SSI) beneficiary, age 41 , was using
           fake medical data under false names to receive multiple SSI payments.
           The subject obtained death certificates of two persons , both born within
           1 or 2 years of his birth. With these , he then obtained birth certificates
           from the counties of their births. He used these birth certificates to
           obtain Department of Motor Vehic1es (D MV) identification. With the
           birth certificate and DMV identification of one person , the subject
         appeared at an SSA district office to apply for an Social Secudty number
         (SSN), satisfied the SSA requirement of two ID documents and was
         assigned an SSN. In the same manner , he was given an SSN for a second
         person through another SSA district offce. Once the false identities
         were established , he filed multiple claims for SSI in different SSA
         offices.

        . Between April 1985 and June 1986 , a legally blind , escaped convict
         fraudulently obtained at least three SSN cards and $1 313 in SSI
         presumptive disabilty payments. He used fraudulently obtained
          legitimate birth certificates to establish fictitious identities prior to filng
          for the SSN cards. He then filed for SSI disabilty using the false il and
          newly acquired SSN. Investigation revealed he was a fugitive from a
         Federal correctional facilty in Caliornia, where he had been servng a
         IS-year sentence for fraudulently obtaining over $140;000 in SSI
         payments over a 7-year period. He had established at least 38 known
         fictitious identities.

Many other cases were reported by registrars and other investigators ilustrating
fraud through counterfeiting and alteration of documents. For example:

         A counterfeiter in a southwest city printed birth cards on safety paper.
         He sold the cards for $40 to $50 each and they were resold by a
         trafficker in false ID for $1 100 to $1 500 each.

         An SSA employee invented 25 fictitious beneficiares over a period of
         10 years. To do this, she took a photocopied birth certificate from a
         legitimate beneficiary file , whited-out the real name and tyed in the
         fictitious information on the birth certificate. She then made a
         photocopy of the altered certificate for the fake beneficiar s fie.
         Before being discovered , she had received approximately $360, 000.


Perpetrators Use Birth Certificates To Help Establish False Identity For
Other Ilegal Purposes
Almost all perpetrators of birth certificate fraud go through a two-step process.
As Figure 1 below ilustrates , the two steps are: (1) to fraudulently use a birth cer­
tificate to obtain false ID documents and thus create a false identity; and (2) to
use one or more of these false ID documents to obtain government benefits or
privileges to which one is not entitled , or to commit other crimes under an as­
sumed name. The first step is to use a birth certificate as a "breeder " document
and the second step is to use the resulting false identity as a modus operandi , or
method of operating, to defraud business or Governent, and/or avoid legal sanc­
tions.
   . . ..:" .......
             ....... .....        . .. .. . ...  :.....
                     .. ... ... ..,...............                              ......:.:.:.   ........ . "''''''          .:. .:.:.




                                                                              FIGURE 1
                                    The Two- Step Process of Fraudulent Use of Birth Certficates:

Step 1                                                                                            Step 2
Establishing a False Identity                                                                     Commt Other Offenses

      f-t 44mk tlk
           QtJt
            J3jdb
              iiifidl.t                    .:i




      as breeder
       document
       to obtain:                                         other
                                                          false
                                                          IDto:
b) as sufficient                                                  .....E
                                                                                               ...H



       in itself to:                                              :.:.Fa1$                                      J.......

                                                                           i#ii9.                     i(. ##tY:

                                                                                                                                       modus
                                                                                                                                       operandi
                                                                                                                                       to:        Commt
                                                                                                                                                  Other
                                                                                                                                                  Offenses




           Most Perpetrators Are Career Criminals Or Ilegal Aliens

           Ilegal aliens and career criminals were mentioned most often by respondents as
           the kinds of persons most likely to commt birth certificate fraud. While there is
           some overlap between individuals in these two categories, each group tends to
           commit birth certificate fraud for different reasons.
Career Criminals Include:

          those who use false identities to engage in such activities as drug
          smuggling, insurance fraud ,  cashing bad checks , counterfeiting and/or
          sellng birth and other documents, entering sham marriages for a price
          credit care or bank fraud , securities fraud , money laundering, organzed
          crime , and ilegal departure from and entry into the country;

          terrorists , espionage agents , and fugitives who use false documents to
          avoid identification and detection; .

          ineligible beneficiaries who habitually use the fraudulent paper route to
          obtain such  governent benefits as AFDC (based on non-existent


          and
          children), other public assistance , unemployment insurance , SSI , Social
          Security (i.e., retirement , survvor or disabilty payments), college grants
          and loan , and sometimes duplicate benefits under diferent identities;


          some employees of issuing or user agencies who , by ilegally issuing or
          accepting birth certificates , facilitate birth certificate fraud by the above.
          kinds of criminals. 


          Some otherwse law abiding citizens also get caught up in using altered
          or other ilegal birth certificates to gain privileges or avoid legal
          penalties. Common examples include: parents of miors whose birth
          record ages are changed to make them eligible for Little League teams;
          minors to get a driver s license or buy alcoholic beverages; adults who
          change their recorded age for what is called "vanty fraud" or to speed up
          or delay retirement , Medicare, or Social Security benefits; and those
          lawbreakers who assume an alternate identity to avoid fines.

Illegal Aliens tyically use fraudulent birth certificates for gainig a legal status
benefit or privilege to which they are not entitled. Those that misuse birth certfi­
cates seek to:

         become a U. S. citizen or legal alien;

         get a Social Security card to work or to collect unemployment benefits;

         become eligible for welfare benefits;
         obtain a passport; or

         get a lower college tuition rate or certain college grants or loan.

While these ilegal acts can be committed by persons in any alien status category,
most concern was expressed about ilegal alens , who face deportation if ap­
prehended without proper documents. Those who misuse birth certifcates come
from al parts of the world.
Extent Of   The Problem Is 
   Unknown

Most State and local registrars and user agency investigators did not know of any
statistics on fraudulent birth certificate cases being kept by their own or other
agencies. Only three State registrars said they kept track of fraud cases. .



J;assport' s Offce of Evaluation and Standards maintains statistics of     ases
referred to investigative agencies by each field offce. During Fiscal Year 1987
  845 referrals were made prior to issuance of a passport. However, these do not
include the applicatiQns estimated to be fraudulent based on determations after
issuance of a passport. These cases are largely, if not entirely, based on bogus
birth certificates.
The EI Paso Intellgence Center (EPIC), established by INS to receive reports
from anywhere in the country on the use of fraudulent documents , received 16 130
reports of fraudulent birth certificates during FY 1986 and 9, 456 during FY 1987.
However, most of these reports are from Texas , Californa, and ilnois and do not
represent all cases nationwide. While not currently national in scope , EPIC' s in­
formation is a potential clearinghouse on fraudulent ID.

When asked how many birth certificate fraud cases had come to the attention of
their agency last year, a third of the respondents were unable to give a figure.
Among those who could , State registrars and investigators reported an average of
134 cases a year; local registrars reported on the average only one case a year.
Only a fifth of the local registrars interviewed thought that birth certificate fraud
was a problem. Although most of the States had few, if any, statistics , 7 of 11 State
registrars interviewed considered birth certificate fraud a big problem in their
State. The other four would not venture a judgement.

The lack of any national , State , or local figur s on the extent of birth certifcate
fraud suggests that such data collection generally has low priority at all levels.
This could be because Federal and State agencies have not yet focused suffcient
attention on this tye of fraud.

The pessimistic conclusion of some respondents was that the system is out of con­
trol and that the war is being won by those who would use birth certificates as an
important link in a chain establishing false identify for ilegal purposes. In 1982
the U. S. Senate s Permanent Subcommttee on Investigations ' study estimated
      that fraudulent ID in general cost society upwards of $24 bilion. Since there is no
      reason to assume that the problem today is less severe , the cost to society, taking
      into account infation, would currently approximate $30 bilion.

      At a hearing on the False Identification Crime Control Act before the House
      Commttee on the Judiciary in 1982 , a Justice Department official testified that
      the problems identified in the F ACFI report stil exist and may even have wor­
      sened in light of the increased number of ilegal aliens , international terrorists
      and drug-smuggling rings in recent years. State legislators are reportedly con­
      cerned with the increasing evidence of a link between false il documents , includ­
      ing birth certificates, and ilegal drug trafficking. Referring to bogus birth
      certificates as a particular form of false ID , one registrar in a western State ob­
      served that: " Birth certificate fraud is maiilya question of ' green.' The problem
      will exist as long as there is money to be made.


II.   THE ISSUING AGENCIES
                                                                                II -- An Eastern.
       I've tried to get the system more centralized, but it's too political.
      State Registrar

      Nearly 7, 000 Local Offices Stil Issue Bir1h               Certificates


      Certified copies of birth records , as well as of other vital events , are issued by
      State and local registrars , stamped with an offcial seal and signed by them, and
      provided to applicants who meet the issuing agency s requirements. These agen­
      cies are usually located in State or local health departments but may operate out
      of other local offices or even homes.

      In 1976 , FACFI counted about 7 000 local offices nationwide which issued birth
      certificates. In 1981 , NCHS survey data showed about the same number. This in­
      spection found only a 1 percent drop in local offices from the NCHS data in the 12
      States visited. The multitude of local offices ,has thus continued. Most copies of
      birth certificates are reportedly issued by these local offices.


      Central Control Over Local Offices Is Resisted In Most States

      Existing statutes in many of the States visited call for State direction and super­
      vision of local registrars ' offices. These States have authority to set policy and pro­
      cedures and to monitor local compliance. In actual practice, however, most States
      exert minimal control.
In about half the States visited , local registrars used their own forms and proce­
dures instead of, or in addition to , those of the State. Although hal of the State
registrars said they closely monitored local offices , two;.thirds ofthe locals in these
same States said their offces were not closely monitored. Only two State offces
made site visits to local offices at least once ayear. All but one of the State
registrars said they had concerns about the controls over blan certificates and
seals in local offices.



The 1977 revision of the model State Vital Statistics Act disseminated by NCHS
calls for centralization of State registrars ' offices. Although many State registrars
recommend the reduction, if not the elimination, of local issuing offces, there has
been little recent movement in that direction. Thirty States and Puerto Rico al
lowed their local offices to issue birth certificates.

Resistance on the part of the thousands of county, city, and town offices across the
country is based on a combination of local CUstom and pride , convenien e to ap­
plicants , financial gain from fees collected (especially where the forms are sup­
plied free by the State), and local political patronage. Concerns about birth
certificate fraud , and the fact that a multitude of local issuing offces makes such
fraud easier to commt , has not sufficiently motivated legislators and executives to
overcome these resistances in most States. Nevertheless, some progress has been
made. (See Appendix 





Ten Thousand Varieties Of Birth Certificate Seals, Signatures, Or Forms
Are Used Nationwide; 6, 000 Used In 13 States Visited

The 1976 F ACFI report estimated that over 1 000 different birth certificate forms
were then issued nationwide. Ths meant that workers in user agencies -- those
agencies to which birth certificates are submitted to docuent eligibilty for
benefit or a privilege -- had to deal with over 1 000 different forms.

However , this inspection found that user agency workers are faced with a much
more difficult task. They not only see different formats with their differing con­
tent , but also see a different certifyng seal and registrar s signature from each
local registrar which issued the certificates. Unless the worker knows what seal
and signature was used by the paricular local issuing office at the time the birth


 tic.
registration was fied or the certified copy was signed , there is no way of knowing
that the document, even if it is an appropriate form for that city or town is authen-


The F ACFI report concluded that the wide variety in document format and
authenticating seals encourages the passing of counterfeit documents. Indeed
 one of our respondents commented on the confsion about seals:
       Someone walks in with a birth certifcate which is completely alien to what the
      workers are familiar with. Even the seal itself varies. We said once it shouldn' t say
      seal, then we found soine that do.


      From the worker s point of view it would appear to be more accurate to count dif­
      ferences in seals and signatures , as well as difference in forms themselves , in
      describing how big the problem really is.

      In about 4 000                                                        pretest State), .
                       issuing offices in the 13 States visited (including the
      each had their own unique seal and signature as well as place name. Lage city of­
      fices issue an average of two forms. It is a conservative estimate that these 4 000
      offices issue. at least 6 000 (1.5 times the number of offces) vareties of birt docu­
                                                                                        does
      used.
      ments with unique seals or signatures , or printed on different form. This
      not take into account the fact that State and local offices also issue copies of older
      certificates which have seals , signatures , and forms different than the current ones


      Based on our conservative estimate of a 1.5 to 1 ratio of documents to offices in
      the States visited , it is reasonable to assume that the approximately 2 900 local of­
      fice in the remaining States issue about 4 30Q varieties of birh documents dif­
      ferentiated by unique seals , signatures, or form. We estimated that there are at
      least 10 000 different seals , signatures or forms currently used around the country.
      Including the many older forms issued over the years and stil in use , the estimate
      would be higher. Thus , the problem of variety is even more overwhelmng than
      was suggested by F ACFI.


II.   THE BIRTH DOCUMENTS

      Print the birth certifcates on a certain type of safety   paper that no one else can buy.
      Cut off the supply of paper to counteifeiters. -- An Eastern State Investigator:

      Most States Visited Provided A Standard Form To Local Ofices;                   But Only
      Some Locals Used Them

      Three quarters of the States contacted reported having a standard birt certificate
      available for local offices to use. However, in only two States were the standard
      forms used throughout the State. In another three States , only some local offces
      used the standard form. Even in the five jurisdictions where a standard form was
      sometimes used , a total of 19 forms , including the standard ones , were used.

      When local offices use these standard forms , which are generally provided free by
      the State , they always add the seal , registrar s signature , and place name of the
      local issuing office. None of the States visited used just one standard form
      throughout their State.
                         ) .

Most respondents recommended standardizing birth certificates within each State
to reduce the variety of forms.


Half The State Offices Visited Were Not Using Safety Paper;
Locals Generally Did Not

Six of 12 States did not use safety paper , although three of these States were plan­
ning to do so. Highly secure safety paper includes such features as intaglio print­
ing, latent images , high resolution borders , and colored background. design.
These features are commonly found in bank p.ote paper. Local offices in only four
of the States reported using safety paper , and they also issued some copies on non-
safety paper as well. An INS investigator in the Midwest pointed out that to save
money, small counties use inexpensive paper ' 'which you can buy in a comer drug
store. II

The extra expense of bank note paper was often cited as an obstacle to its use by
local registrars and even by some State offices. One registrar estimated the extra
cost of the bank note paper to be at least 13 
   ents more per copy.

The non-safety paper stil used by some States and most localities presents
numerous problems. Cited as most vulnerable to fraud through alteration or
counterfeiting were photocopies, plain white paper certificates, and plastic
registration cards. (See Best Practices in Appendix A.



Seals were also seen as a weak link. Not only were original seals. and certifyg
stamps at the local level described as ilegible , but respondents noted that the
stamps and seals can be easily duplicated.


Physical Security And Document Controllmprovin9 But Stil Spotty,
As awareness of birth certificate fraud has increased , State efforts to secue birth
registration and certificate forms appear to have improved. Blank form and seals
are tyically locked in drawers or lockers at J1ght and kept away from public ac­
cess during the day. There are exceptions. One State registrar said his two seals
were put away in a desk but the desk was notlocked. Some States allow the same
person to handle the processing and answering of requests for copies. This may
provide more opportunity for theft or fraud to go unnoticed. (See Best Practices
in Appendix A.

Insufficient control over blank forms was also noted at the State level. Not all
States prenumber their forms. While most , if not all , State offices have developed
systems of numbering, logging numbers as used, and reconcilng against dollars
collected for fees , there are stil some gaps in security. Examples include:
                     blank birth certificates and seal stored in the open;
                     a microfim file of birth records kept behind the counter;
                     documents kept at home by a local registrar; and
                     theft of a city' s birth certificate forms from a city print shop.

      These examples underline the need to increase security at all stages, from printing
      through issuance of birth documents. The most secure paper is only as safe as the
      procedures for printing, distributing, locking and accounting for it.

      A major reason for local office vulnerabilty to theft , loss , alteration, and counter­
      feiting is the lack of guidance , standards , or active oversight from most State of­
      fices regarding security. Accessing indexes and fies of original birth registrations
      is one effective way to get the information needed to apply -- legally or ilegally -­
      for the birth certificate of another person. Persons with fraudulent intent can
      peruse either birth or death records to get the name , date , place of birth , and
      other items (e.g., mother s maiden name) which may be required.

      States ' laws and regulations regarding access to vital records var greatly. Either it
      is practically impossible for the public to get into the vault or room where original
      birth registrations or indexes are kept , or it is practically impossible to keep the
      public out during office hours. States with " open             records " laws are more vul­
      nerable to fraud through easy access to records.


IV.   ISSUING          PROCEDURES

       'Almost anyone can go over to the State and get someone else:S             birth certfiate.   -- A,
      Welfare Fraud Investigator    In An " Open Record" State

      All   States Vulnerable        To   Fraud; " Open R    cord"      States More So

      Five of the 12 States visited -- Caliornia , Massachusetts , Minnesota, Vermont and
      Washington -- had laws which classify them as " open record" States. These are
      States , as succinctly stated by a local registrar , in which: " By law, the original birth
      registration is a public record. Anyone can see it and get a copy of it. We have no
      authority to question. " Nationwide , 10 of 57 central office issuing jurisdictions had
       open records; " in 43 the records were relatively more protected. The four other
      jurisdictions (Virgin Islands , Guam, American Samoa, and the Trust Territory of
      the Pacific Islands) were not included in this analysis.

      The five " open " States visited allow any individual with the minimum information
      necessary to apply for and obtain a copy of anyone s birth certificate. Offices in
      these States generally do not require any ID from the applicant. States with
      protected record statutes allow copies to be issued only to certain categories of
                                               ...                   ,"




persons. Typically, those eligible include registrants over 18, parents guardian or
legal representatives. However , even in the seven stricter States visited , only two
reported requiring any ID at the State Registrar s Offce. An investigator in a
 protected" State described a vulnerabilty in the issuing agency s procedures as
follows: liThe problem in issuing is clerks not knowing who is    standing in front of
them. There s a lack of interest in many local offices in thwarting fraud. It doesn
seem to affect them.

As some States and localities move to tighten issuance procedures How To
manuals , supplemented by word of mouth , are spreading the word about what
areas to avoid. The   Paper Trip 
  , for example , an underground- tye publication
on how to create a false identity, warns against requesting a birth certificate in cer­
tain States and cities and advises its readers that you not get dicouraged that
your efforts appear stymied in a particular area. Go to the next county--or State--and
try again. Nine times out of 10 you won t believe how eas it is.

All States , whether protected or not , are vulnerable to fraud because il is seldom
required , fraud prevention has a low priority particularly in local offices, and
death records can frequently be obtained.


The Application Process Is Generally Weak, Especially By
Mail Or Telephone

All the States visited used application forms for persons requesting a birth certifi­
cate. However , most required them only of the 15 to 20 percent of applicants who
walk into the State offce. In the large majority of requests to the State offce
which are made by mail (or , in a small but increasing number of cases, by
telephone), application forms were not generally used.

The situation was reversed in local offces: walk- ins constituted about 60 percent
of all applicants , and applications were generally required. The remaining 40 per­
cent who requested a copy by mail or telephone did not fil out applications.

Applicants who mail or telephone in their requests , without application form
usually did not have to give any identification or even provide their signatures.
Registrars saw mail requests as the most vulnerable mode of request because
there is no opportunity to question the person as with "walk- ins " and even "phone­
ins.

In the last several years , a growing number of State and local registrars have
begun to accept applications by telephone. This procedure has been faciltated by
computer technology. Registrar clerks key into a terminal the necessary informa­
tion given by the telephone applicants , including a credit card name and number
to cover the fee. Since there is no way of verifying that the caller is the same per­
son whose name is on the credit card or , forthat matter , is eligible for the re­
quested certificate, impersonation by telephone is as easy as by maiL

Even if all applicants were required to complete an application, the current forms
contained weaknesses. Twenty-one application forms (10 State and 11 local) were
examined and compared to the Model Application Form for Birth Certifcates
prepared for FACFI. Among the items contained in nearly all the form , only one
is not easily known to an outsider: the mother s maiden name. This can be ob­
tained from a death certificate.

As many as a third of the forms failed to call for the following items: the hospital
or address at which the registrant was born, the full name at birth , and the
applicant's signature. Even when forms did contain the above items , all of which
were included in the F ACFI model , the applicant was not routinely required to
answer each question. In some offices , for example , the applicant' s signature was
optionaL

Other items , some of which are hard for potential impostors to know, were not
generally included. The following items , for example , were included on the 21
forms less than half the time:

                                                          Percent of Times
         ITM                                             Included on Forms

         Purpose of application                                   43%
         Warning against fraudulent application
         Mother s place of birth
         Father s place of birth
         Mother s address at time of birth
         Number of prior births


No matter how well the application is designed to discourage fraud, however, it
wil not be an effective countermeasure unless it is required of mail and telephone
requesters as well as of "walk-ins.

Another measure to reduce fraud is to tally the number of requests and flag fre­
quently- issued certificates to avoid inappropriate issuance. Many States have not
taken advantage of this preventive tooL
States Are Matching Birth And Death Records

A frequently used technique to obtain a birth certificate is the "Infant Death Iden­
tity" scheme (Le. , getting a certificate for a dead infant with identifyng informa:­
tion gleaned from old newspapers or death registers). To combat this , FACFI
recommended matching of birth and death records. 


More States were found to have begun to match their own birth and de th records
in the last few years. The Association for Vital Records and Health Statistics has
obtained agreement from the States to exchange birth and death and other vital
records with each other on a regular basis. (See Appendix A.

A number of problems inhibit the smooth exchange of birth and death certificates
among the States (and even within States). One problem is the time gap between
a person s death and the time at which the record is received and the birth record
marked " deceased. II As long ago as 1971 , in anticipating the possibilty of cross
referencing among States , The Paper Trip I advised: ' There would be a time delay
loophole in the birth/death matching. Updating would occur probably only once
per month , which would allow a clever Tripper time enough to obtain a birth cer­
tificate of a recently deceased person.

Some States which match births and deaths did not send notices to local offices to
enter on their records. Thus , impostors could stil obtain birth certificates of dead
persons from these local offices.

Another obstacle to effective matching among the States is the variation in the
upper age limit for matching deaths. This limit ranged from infancy to middle age
among the States visited. Nor did State registrars always agree on the Interstate
Agreement' s upper age for sending children s death notices to the State of birth.

The cost of conducting birth/death matches was cited by respondents as a problem
which could affect the feasibilty of matching records on some sort of national
basis. Only half the local registrars endorsed the idea and several mentioned fund­
ing problems. While the great majority of State registrars and investigators stated
their belief that such matching was both desirable and feasible, a third of the State
registrars cautioned about the cost. 


Both A VRHS and NCHS continue to explore ways to expand birth/death match
activities. The A VRHS has recently surveyed its membership to ascertain the
readiness of State vital statistics offices to extend their interstate birth/death
matches beyond infancy into adulthood.
                                                ..    ,"




A project to link infant birth and death records nationally was launched in late
1986 by NCHS. Although initiated for statistical purposes , the project is further
developing birth/death match technology. NCHS has also asked States to
describe their procedures for flagging birth records of deceased infants. The
results of this evaluation project will be shared with States.
While there is no agreement on anyone solution, consensus regarding the need
exists. As stated by a western welfare investigator If birth records were matched
with death records and birth certificates were stamped ' deceased' across the front
they could not be used for fraud.

In a somewhat related action , the Social Security Administration has been piloting
a project in three States to issue SSNs to infants at birth at the request of their
parents. One positive effect of implementing this demonstration nationally would
be to increase the integrity of the SSA' s process for issuing Social Security cards.
Since most applications for cards made subsequent to the time of birth would be
for replacement cards only, SSA' s built-in internal review of the original applica­
tion documents would minimize the use of fraudulent birth certificates as breeder
documents to falsely obtain Social Security cards. Specifically; SSA does not
recognize the birth certificate as an identification document when issuing replace­
ment cards. 

THE USER AGENCIES

 There are so many diferent types of legitimateform issued by the States, counties,
and cities that it is impossible to be familiar with those of even a few States. -- An As­
sociate Commissioner Of The Immigration And Naturalization Servce

Federal And State Agencies Use Birth Certificates Heavily.
Heavy users of birth certificates submitted by applicants as evidence of eligibilty
include the following two Federal and two S!ate agencies:

          Social Security Administration. District office claims and servce
          representatives ask for birth certificates as proof of age and citizenship
          when persons first apply for Social Security cards, as proof of age for
          retirement benefits and as proof of both age and citizenship for SSI.
          Birth certificates are also used as proof of age and/or relationship for
          dependents of the primary worker for such programs as Retirement
          Survvor s and Disabilty Insurance.
          Passport Services Of The Department Of State. Examiners , clerks of
          court , and designated post office employees ordinarily require birth
          certificates of first- time passport applicants as proof of citizenship.
                                                      ,"                         ..




         State Human Servces Agencies. Intake and eligibilty workers request
         birth certificates as proof of age or relationship of applicants for:
         Federally- funded programs likeAFDC, Food Stamps, and Medicaid;
         and for State- funded general assistance programs. Besides the problem
         of fraudulent birth certificates, missing or fraudulent social security
         cards, as noted earlier , were found to be a major source of errors in
         programs such as AFDC. 

          State Driver' s License Agencies. Desk clerks in these user agencies
          prefer birth certificates for proof of age with young applicants.

Each of these agencies requests a birth certificate when the applicant says it exists.
However , the agencies differ in the documentation they will ultimately accept.
Passport servces is most insistent. While SSA will send an applicant home to get
a certificate or ask a district office in the area where the applicant was born to
check on the existence of a valid birth record, State agency workers have more
leeway in accepting alternate documents. When no birth certificate exists , all of
the agencies wil review such alternate documents as baptismal certificates and
census documents.


Most Workers Receive Minimal Training On Birth Certificates

Workers in user agencies review anywhere from 30 to 350 birth certifcates a
week. As many as 40 percent of these are from out of State , makng it harder to
evaluate their authenticity. The situation waS summed up by an investigator with
a user agency in the South who said: I There s no way to determne what is authen­
tic with a reasonable degree of success. It' s a big problem. We re  talgabout
thousands of documents issued from so many sources. There s no control.

As a result , agency workers reported recognizing an average of only two or three
suspicious- looking birth certificates in a month , and few of them ended up being
rejected as invalid. More than one worker echoed the words of a supervsor of a
multi-service center in a midwestern State who said I wouldn t know a counter­
feit if! saw one.

The amount of training which workers get inbirth certificate fraud varies by agen­
cy. The passport servces has the most active training program for its field office
personnel but it is less extensive for post office employees and clerks of court who
handle the majority of passport applications. . Senior examners and passport fraud
coordinators provide on-the-job training in the field offices , and a traing manual
lists criteria of a good birth certificate.
                   , '                                  ,"




Social Security provides some training for its district office staff. It consists
primarily of initial instruction in document review, followed by distribution of pro­
cedures manual updates, regional circulars and other written materials. These
cite known fraudulent activities, including theft and counterfeiting of birth certifi­
cates, which could affect acceptance of applications.

The majority of SSA workers , however , indicated a need for more training in this
area. One worker said it was 10 years since she was trained. Another SSA repre­
sentative said that 'Training is not intense; it' s sporadic and depends on the inter­
est of the worker. " An SSA security officer described the result: liThe amouIit of
knowledge among workers varies. One persqnwill       quote you chapter and verse
and the person next to him won t know a thing. " Nevertheless, SSA offcials state
that even an extra emphasis on training will not give workers the degree of exper­
tise they need to detect false documents -- an expertise usually found only in spe­
cial document labs. 

State welfare and driver s license agencies generally have less well developed
training programs for their staffs. Several welfare office supervsors said there
was no awareness among their staffs of the topic since there were no problems in
their areas. (See Best Practices in Appendix A.

A special problem was noted in those States where local welfare agencies process
applications for Social Security numbers on behal of SSA. An earlier HHS/OIG
report , Controls Over The Social Security Number Application Process, found
that such local welfare workers receive inadequate trainig in detecting false birth
certificates.

The driver s license agencies tyically have had little or no traing for their
counter clerks regarding birth certificate fraud. One State agency offcial had not
known any problem with birth certificates existed. (See exceptions in Appendix



Agency " Service " Mission And Employee Evaluation Criteria Act As
Disincentives To Ferreting Out Fraud

The primary mission of SSA, passport services, State welfare, and driver s license
agencies is to serve the public. While most of them have investigative units , the
agencies ' service philosophies tend to perm ate the staff even as they try to
defend against fraud. The emphasis is on moving large numbers of cases efficient­
ly through the system. In the words of an investigator A birth certificate is one
more check on a blank form; because of the volume , it' s not feasible to do a lot of
checking. II
Workers were also asked how high a priority their agency placed on stopping
fraudulent use of birth certificates. While two- thirds of the workers from
passport servces said it had medium or high priority, none of the SSA staf said
so. Compounding these obstacles to greater anti-fraud activities is the lack of iIi­
centives for workers to do more. For example, no credit is given by SSA fordetec­
tion of fraudulent documents under its system of performance evaluation.


Poor Communication Hinders Deterrence And Detection

Communication and cooperation among Federal , State , and local investigators
and between the investigators and State and local registrars took place in every
State we visited. The extent and effectiveness of such efforts , however , varied
from good to poor.

While effective coordination efforts were observed in some cities and States
visited (see Appendix A), the overall picturepresented to the inspection team
around the country was that of poor communication among agencies. The spotty
nature of these efforts was ilustrated by the following items:

           It's one-way communication -- we never hear back.
                ve been waiting over a year for SSA to straighten cases out.
           I've notified the Secretary of State -- it' s like talking to a wal1."
           We work close with INS but get no feedback on action it takes on
          referrals.

Cooperation between State registrars and investigative agencies also varied wide­
ly. The California State Registrar , for example , had loaned a microfilm fie of
vital records to the Los Angeles Passport Office for onsite access (see Appendix
A). A registrar in another State , however, reportedly would not expeditiously
verify birth certificates for the passport office there. The lack of formal and coor­
dinated information sharing among agencies impacts negatively the abilty of in­
vestigators and registrars alike to develop comprehensive plans to effectively
prevent and detect birth certificate fraud.

When asked what the Federal government should do to help prevent birth certifi­
cate fraud , respondents were most likely to urge closer coordination and com­
munication between Federal and State agencies , including developing nationwide
information networks and sponsoring interagency meetings. A State registrar in
the West summed it up: "The issue has national impact and therefore demands a
cooperative effort between Federal and State Governents.
Inadequate Laws And Priority On " Big Bucks" Cases Hinders Prosecution

Effective sanctions against perpetrators of birth certificate fraud are hindered by
laws viewed as inadequate and by resistance to prosecuting individuals who
misuse birth certificates unless large sums of money are involved.

The historical inadequacy of Federal and State laws for charging in9ividuals who
are involved in birth certificate fraud was described in theF ACFI report. As a
result of its recommendations , Title 18 USC, Section 1028 was passed as par of
the False Identification Crime Control Act of 1982 which closed some ofthe exist­
ing loopholes in Federal statutes. This new statute has been used successfully to
prosecute and convict persons involved in birth certificate fraud. Overall, it is
viewed as a positive step.

Two problems were noted with Section 1028. One investigator felt it was too
limited because it does not make possession of a fraudulent State document such
as a birth certificate , an offense unless there is either a Federal doromentin­
volved , evidence of defrauding the United States or the use of the mails. Another
problem mentioned was the lack of publicity given to the availabilty and ad­
vantages of the statute.

Progress in obtaining new State legislation has been slow. A few States have
passed statutes aimed at fraudulent identification and/or restricted access to vital
records. A number of respondents , however, emphasized the lack of adequate
 laws in their own States. 

. In addition, there is a reluctance on the part of most prosecutors and some inves­
  tigators to pursue individual perpetrators of birth certificate fraud. They are
 usually charged with the crime committed under a false identity, rather than with
  the birth certificate fraud itself. A low priority is tyically given to cries of ob­
  taining false identity because , until subsequent criminal activities occur, few dol­
  lars are likely to be involved.
                                RECOMMENDATIONS


Since the production and issuance of legal birth certificates are clearly State and local
functions , recommendations are directed to officials at the State level. It is hoped that
the findings of this national inspection will encourage a concerted effort by State
registrars to attain greater standardization of birth certificate forms (Le. , certifed copies)
and procedures, expanded use of safety paper , increased security of documents , stricter
access and application procedures , and increased participation in national efforts to
prevent birth certificate fraud. To be effective , such efforts must include both stricter is­
suance and more tamper proof documents. Neither by itself is sufficient.

Such efforts by registrars will be most effective where they have the support of their
Governors , their legislatures , and such national assQciations as the National Governors
Association and the Association for Vital Records and Health Statistics.


                         , should:
It is recommended that State registrars, with the support of their Governors and the
above groups as needed

                 Standardize the form and content of birth certificates within their State
                 including the incorporation of document security features to protect birth
                 documents against alteration and counterfeiting. Such document security
                 should include the use of bank note- tye safety paper with unique security
                 characteristics, such as intaglio printing, high resolution borders, latent
                 images , varying color tones , hidden errors, and latent "void" markings.

                 Promote greater intra- State standardization of birth certificate form and
                 issuance procedures , through State legislation if necessar, by reducing
                 substantially the number of local issuing offices and/or by exercising greater
                 control over local forms and procedures.

                 Establish minimum standards for the physical security of vital records
                 certified copy blanks , and seals against theft by providing secure storage , 24
                 hours a day, of blank forms and record fies, and by a system of strict
                 accountabilty for all certified copy blans through prenumbering and other
                 controls.

                 Urge legislatures to amend existing statutes, or pass new ones, to protect
                 the privacy of individual vital records by restricting physical access to such
                 records , and by strictly limiting applications for certified copies to those who
                 have direct and tangible interest and can provide adequate identification.
Assure that their States participate fully in and help expand A VRHS'
voluntary Interstate Vital Records Exchange SysteInto include the. sharng
of death records. for persons substal1tially beyond infancy for purposes of
matching with birth records; and adopt a standard procedure for overlaying
the word " Deceased" on original and certified copies of birth records of
persons who have died.

Work cooperatively with the Social Security Administration in its pilot
efforts to establish procedures whereby a parent can receive an infant'
Social Security card at the time the infant's birth is registered, and in the
long run help reduce the utilty of a false birh certificate as a breeder
document of a false identity.
                                      APPENDIX A.

BEST PRACTICES

The inspection team noted a number of State and local fraud prevention activities on the
part of registrars and State user agencies which it considers to be best practices. They are
described here so that other States and localities may consider adapting them. They in­
clude best practices with respect to centralization issuance , standardization of docu­
ments , security of paper, security of documents , secure issuing procedures , user agency
staff training, and effective communication. They are not meant to be a complete listing
of existing models even in States visited.


       Centralization of Issuance

                 While most State registrars allow their local offices to issue birth
                 certificates , 16 States (Arkansas , Arizona , Delaware , Hawaii , Idaho
                 Kansas , Kentucky, Louisiana , Marland , Missouri , Nebraska , Nevada
                 New Mexico , Tennessee , Wyoming, and Virginia) plus New York City
                 and the District of Columbia, according to information available, either
                 sharply curtailed local issuance or had no local offices. About 14 of
                 these jurisdictions permitted issuance only by the State office , and
                 another five limited local issuanceto less than a handful of large local
                 offices.

                 Two States visited (Florida and Ilinois) sent field representatives to
                 monitor local offices at least once a year. 


       Standardization of Birth Documents

                 Virginia, with no local offices issuing birth certificates , used several
                 standardized State forms of certified copies throughout the State. New
                 York City similarly issues standardized forms throughout its five
                 boroughs.

                 Three States (Californa , Vermont , and Washington) reported that State
                 forms issued to local offices (free of charge in the latter two) were
                 routinely used.
       Security of Paper
                 Of the seven visited States using some tye of security, five (Caliornia
                 Ilinois , Texas , Virginia , and Vermont) were using highly secure paper
       including such features as intaglio printing, latent images , high
       resolution borders , and colored background design.

       The city registrar in Detroit issued birth certificate copies on safety
       paper that was watermarked and would reveal the word " Void" if
       photocopied or treated with ink eradicator.

Secure Issuing Procedures

        In   several State offices (e. , Michigan and Washington), incidents of
        theft and fraud led to a separation of duties among staff responsible for
        processing and answering requests for copies. Such action precluded
        anyone person from responsibilty for all steps in the process.

        Following the lead of States like California, all but one of the visited
        States routinely matched birth and death records. Also , most marked
         deceased" on the birth records which are then released with the
         deceased" overlay, or are flagged for non-release.

        This increase in matching activity is due in part to the efforts of the
        A VRHS in promoting its Agreement for Administering the Interstate
        Vital Records Exchange System. These agreements signed by all State
        Registrars Offices , New York City, the District of Columbia, Guam,
        Puerto Rico , the Virgin Islands , and Canadian Provinces call for: (1)
        sending birth , death , and other records relating to non-residents to the
        State or Province where the individual usually resided; and (2) sending
        death certificates for infants under 1 year old to the State of birth.

        One factor cited to support national birth/death matches is the
        increasing computerization of State vital records. Of the 12 States
        surveyed , five issued computerized copies and five more had plan to       do
        so.

User Agency Staff Training

        The outreach program established by the Bureau of Client Fraud
        Investigation in New York City has developed a training and awareness
        program for selected welfare staff:

        The Michigan Department of State has developed a pilot training
        document for staff in the Detroit area; and the Florida Division of
        Driver s Licenses had an aggressive program for its employees
        statewide. This training reportedly led to an increase in arrest rates.
                                             ,"




         When training has been provided to workers in user agencies , it has
         often been with the cooperation of fraud investigators from their own
         and other agencies. The INS special agents, and passport fraud
         coordinators in particular, have joined with SSA Security Officers,
         HHS/OIG agents , welfare investigators and State and local registrars to
         provide such training.

Effective Communication

Where communication and collaboration does take place , it is often the result of
informal networking among individuals-- investigators and registrars--who have
developed working relationships. In Detroit , for example, the following joint ac­
tivities were reported:

          City and suburban bank investigators met monthly together with State
          and local police , Secret Servce , the Postal Inspector and others to
          discuss problems of fraudulent il.

          The Detroit Office of the Secretary of State sent details of fraudulent
          driver s license requests to the bank investigators ' group as well as to the
          State registrar. The bank , in turn , gave fraudulent driver s license
          numbers to the Secretary of State.

          The City registrar alerted the State registrar to fraudulent requests so
          they could tag the birth certificate in the State office. If there was a

          Inspector. .
          problem with mail requests , the City referred them to the Postal


          According to the INS investigator If the passport offce in Chicago has
          a case that appears to be an immgration case , they send it to us and we
          send them a copy of a finished report."

An example of effective coordination between a State registrar and passport agen­
cies was observed in California as follows:

          In 1983 ,the California State registrar agreed to loan copies of birth and
          death records to the passport office in San Francisco. The project was
          so successful in expediting the verification of record authenticity that it
          was expanded to include the Los Angeles Passport Office. In 1985 , the
          San Francisco office detected at least eight birth certificates for
          deceased individuals which were sllbmitted with applications.
                                       APPENDIX a


COMMENTS ON DRAFT REPORT AND OIG COMMENTS

The HHS comments on the draf report were received from the Administrator of Health
Care Financing Administration , the Deputy Assistant Secretar for Health Operations of
the Public Health Service and the Commssioner of Social Security. From outside HHS
they were received from the President of the Association for Vital Records and Health
Statistics , and the Director of the Offce of Consular Fraud Prevention Program of the
   S. Department of State.

The Public Health Servce commented that the use of the term "birth certificate
throughout the report made no clear distinction between original birth records and cer­
tified copies based on those records. Several technical comments were also made by
PHS regarding the number of issuing jurisdictions , whether any States did not routinely
match birth and death records , and which States curtail local offce issuances of birth cer­
tificates.

       The DIG response. 
   A statement is added at the beginnng of the report which
       clearly states that in the report we refer to certified copies as " birth certificates " as
       distinct from the original birth records or registration on which certified copies
       are based. We also checked each technical comment and made appropriate chan­
       ges.

The A VRHS expressed concern about the lack of documentation of the scope of the
fraud problem and suggested a stronger statement to help convince States of the need for
change.

       The DIG response. 
   We added additional statements supporting the view that
       problems of false identification in general ap.d of birth certificate fraud in par­
       ticular are likely to be increasing as a result of the Immigration Reform and Con-
       trol Act.

The A VRHS also pointed out that the National Center for Health Statistics is not in a
position to match records since States do not provide NCHS with identifiers on birt
records.

       The DIG response. 
  Reference to NCHS as a possible coordinating agency with
       regards to a national birth/death match is deleted. We also refer to an A VRHS
       survey of States ' wilingness to expand their interstate exchange of birth and death
       information to include deceased persons substantially beyond infancy.
The recommendation (#2) that States reduce the number of local issuing offices and/or
exercise greater control over them , according to A VRHS , would require legislative ac­
tion in many States.

       The DIG response. 
       This point is acknowledged in the recommendation.

The recommendation (#5) which calls for strengthening A VRHS' voluntary Interstate
Vital Records Exchange , was viewed favorably by PHS. The agency noted , however , that
the exchange would have to be expanded beyond inant           deaths to be   effective against
fraud.

       The DIG response. 
 The wording was changed from " strengthen" to " expand.. to           in­

       clude the sharing of death records for persons substantially beyond infancy.

The recommendation (#6) that States work cooperatively with SSA to establish proce­
dures for issuing infants an SSN at the time of birth was the subject of two comments.
update on their pilot project was provided by SSA;and PHS did not see the relevance of
the recommendation to birth certificate fraud.

       The DIG response. 
       Our description of SSA' s pilot project in the findings was up­
       dated and its potential relevance to birth certificate fraud was indicated.

The Department of State and HCF A both suggested more specific recommendations.
The HCFA, while acknowledging the limitations of the Federal role , suggested the
report " include more definitive guidelines for actively coordinating efforts among the
various parties... " The State Department offered two specific recommendations. The
first is for State and local registrars to develop a set of criteria to be required on applica­
tions for birth certificate copies. The second is that " registrars should be furnshed with a
set of data which must be provided for documents to be acceptable for Federal pur­
poses. "    Specific items were suggested.
           The DIG response. 
   Having carefully considered what Federal actions might be
       feasible and effective in coordinating efforts to reduce birth certificate fraud , it
       was concluded that States hold the key to stricter issuance and more tamper- proof
           documents. The OIG recommendations call for coordinated actions by registrars
       with the support of their Governors , the National Governors Association and
       A VRHS. Best practices in collaboration among public and private agencies are
       listed for others to consider. On the matter of application form criteria, we have
       referred to the Model Application Form prepared by F ACFI which includes many
           items generally not included on State forms. Finally, we agree it would be useful
           as a long-range strategy to have Federal agencies agree on minium information
           which they would require for birth certificates to be acceptable for Federal pur­
           poses. We felt , however , that other actions were more feasible at this time.
